                   the

          Audit of the
Broadcasting Board of Governors'
                       Governors'

      Financial Statements
                Statements

  September 30, 2007 and 2006
                         2006

  Independent Auditor's Report
                        Report

          AUD/FM-08-07
          AUD/FM-08-07





  Leonard G. Birnbaum and Company, LLP

                                      LLP
        Certified Public Accountants
                         Accountants

           6285 Franconia Road
                            Road

        Alexandria, Virginia 22310
                             22310

               (703) 922-7622
                     922-7622

                             LEONARD G. BIRNBAUM                               AND    COMPANY, LLP
                                                 CERTIFIED PUBLIC ACCOUNTANTS
                                                             WASHINGTON OFFICE

                                                            6285 FRANCONIA ROAD

                                                         ALEXANDRIA
                                                         ALEXANDRIA,, VA 22310-2510


                                                                (703) 922-7622
                                                              FAX
                                                              FAX:: (703) 922-8256

LESLIE A . LEIPER                                                                                                        WASHINGTON
                                                                                                                         WASHINGTON,, D.C.
                                                                                                                                      D.C .

LEONARD G. BIRNBAUM                                                                                                    SUMMIT.
                                                                                                                       SUMMIT, NEW JERSEY

DAVID SAKOFS                                                                                                      REDWOOD CITY
                                                                                                                          CITY,, CALIFORNIA

CAROL A. SCHNEIDER
DORA M.
     M . CLARKE



                                           INDEPENDENT AUDITOR'S REPORT



              To the Chairman
              Broadcasting Board of Governors

              We have audited the Broadcasting Board of Governors' (BBG) Balance Sheet, Statement
              of Net Cost, Statement of Changes in Net Position, and Statement of Budgetary
              Resources (Annual Financial Statements) as of, and for the years ended, September 30,
              2007 and 2006; we considered internal control over financial reporting in place as of
              September 30,2007, and for the year then ended; and we tested compliance with selected
              laws and regulations.

              In our opinion, BBG's 2007 and 2006 annual financial statements are presented fairly in
              all material respects.
                           respects.

              We found:

                    • significant deficiencies in internal control, and
                    •	

                    •	
                    • an instance of noncompliance with selected provisions of applicable laws and
                       regulations.

              Each of these conclusions is discussed in more detail on the following pages. This report
              also discusses the scope of our work.

                                             ANNUAL FINANCIAL STATEMENTS

              In our opinion, BBG's annual financial statements, including the notes thereto, present
              fairly, in all material respects, BBG's financial position as of September 30,2007
                                                                                         30, 2007 and
              2006, and its net cost of operations, changes in net position, and use of budgetary
              resources for the years then ended, in conformity with accounting principles generally
              accepted in the United States of America.




                                 M EM B ERS OF THE AM
                                 MEMBERS              E RI CAN INSTITUTE OF CERTIFIED
                                                   AMERICAN                 CERT I F I E D PUBLIC ACCOUNTANTS
                                                                                                  AC COUN TANTS
                                   INTERNAL CONTROL

In planning and performing our audits ofBBG's annual financial statements as of, and
for the years ended, September 30,2007
                                 30, 2007 and 2006, in accordance with auditing standards
generally accepted in the United States of America, we considered BBGBBG's's internal
control over financial reporting as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the annual financial statements but not for the
purpose of expressing an opinion on the effectiveness ofBBG's internal control.
Accordingly,,	 we do not express an opinion on the effectiveness of
Accordingly                                                       ofBBG's
                                                                     BBG's internal
control. We limited our consideration of internal control to those controls necessary to
achieve the objectives described in Office of Management and Budget (OMB) Bulletin
07-04, Audit Requirementsfor Federal Financial Statements. We did not consider all
internal controls relevant to operating objectives as broadly defined by the Federal
Managers' Financial Integrity Act of 1982 (FMFIA), such as those controls relevant to
ensuring efficient operations.
                   operations. The objective of our audit was not to provide assurance on
internal control. Consequently, we do not express an opinion on internal control.

The purpose of internal control is to provide management with reasonable
                                                              reasonable,, but not
absolute, assurance that the following objectives are met:

       •	 transactions are properly recorded and accounted for to permit the preparation
          of reliable financial reports and to maintain accountability over assets;

       •	
       • funds, property, and other assets are safeguarded against loss from
          unauthorized acquisition, use, or disposition;
                                            disposition;

        • transactions, including those related to obligations and costs, are executed in
        •	
           compliance with laws and regulations that could have a direct and material
           effect on the financial statements and other laws and regulations that OMB,
           BBG management, or the Office of Inspector General has identified as being
           significant for which compliance can be objectively measured and evaluated;
           and

        •	
        • data that support reported performance measures are properly recorded and
           accounted for to permit preparation of reliable and complete performance
           information,
           information.

Our consideration of the internal control over financial reporting would not necessarily
identify all deficiencies in internal control that might be significant deficiencies or
material weaknesses.
          weaknesses. However, as discussed belowbelow,, we identified certain deficiencies in
internal control that we consider to be significant deficiencies.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions,
                                                                               functions ,



                                               2
                                               2

to prevent or detect misstatements on a timely basis.basis . A significant deficiency is a control
                                                                                           control
deficiency, or combination of control deficiencies, that adversely affects the entity's
ability to initiate
           initiate,, authorize
                      authorize,, record, process, or report financial data reliably in
accordance with generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of the entity's financial statements that is more
than inconsequential will not be prevented or detected.
                                                    detected .

We noted two matters involving internal control that we consider to be significant
deficiencies:

        • BBG's internal control over its financial and accounting system as of
        •	
           September 30,2007, was inadequate.

                                     inadequate. There is a risk of materially misstating
                                                                                   of

           financial information under the current conditions. The principal areas of
           inadequacy were as follows:

                               follows:

            • certain elements of the financial statements, principally property
            •	                                                           property,, plant,
               and equipment, are developed from sources other than the general ledger.
               The use of sources other than the general ledger to generate elements of
               the financial statements increases the potential for omission
                                                                    omission of significant
               transactions.

            •   BBG has not fully codified its financial management operating
                procedures. The absence of codified operating procedures presents
                opportunities for inconsistencies and errors in processing financial
                transactions.

        This condition was cited in our audit ofBBG's Balance Sheet as of September 30,
        2004, and in subsequent audits.

        •   During FY 2007,
                        2007 , BBG did not maintain adequate internal control over
            accounts payable.
                     payable. Initial audit testing indicated that the amount presented as
            accounts payable was misstated by approximately 42 percent. Although BBG
            undertook an initiative to identify and resolve misstatements in accounts
            payable, the reconciliation had not been completed by September 30 30,,2007
                                                                                   2007..

        This condition was cited in our audit ofBBG's annual financial statements as of
        September 30, 2006.

We are required to review BBG's current FMFIA
                                         FMFIA report and disclose differences with the
material weaknesses cited in our report. We did not identify any discrepancies.
                                                                 discrepancies.

Finally, with respect to internal control related to performanoe measures,
                                                                 measures , we obtained an
understanding, as required by OMB Bulletin 07-04, of the design of significant controls
relating to the existence and completeness assertions and determined
                                                            determined whether those
controls had been placed in operation.
                              operation.	 Our procedures were not designed to prov
                                                                               provide
                                                                                   ide




                                                 3

assurance on internal control over reported performance measures, and accordingly, we
do not provide an opinion on such controls
                                   controls..

We noted certain other internal control issues that we have reported to BBG management
in a separate letter dated November 14,2007.

                    COMPLIANCE WITH LAWS AND REGULATIONS

BBG management is responsible for complying with laws and regulations applicable to
BBG. As part of obtaining reasonable assurance as to whether the annual financial
statements are free of material misstatement, we performed tests ofBBG's
                                                                   ofBBG 's compliance
with certain provisions of laws and regulations, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts, and
certain other laws and regulations specified in OMB Bulletin 07-04. We limited our tests
of compliance to these provisions, and we did not test compliance with all laws and
regulations applicable to BBG. The objective of our audit of the annual financial
statements, including our tests of compliance with provisions of selected
                                                                  selected laws and
regulations,
was not to provide an opinion on overall compliance with such provisions.
regulations,                                                                  provisions.

Accordingly
Accordingly,, we do not express such an opinion.

Material instances of noncompliance are failures to follow requirements or violations of
prohibitions in statutes and regulations that cause us to conclude that the aggregation of
the misstatements resulting from those failures or violations is material to the financial
                                                   thereof.
statements or that sensitivity warrants disclosure thereof.

The results of our tests of compliance with the laws and regulations described abo ve
                                                                                above
disclosed the following instance of noncompliance with laws and regulations that are
required to be reported under Government Auditing Standards
                                                     Standards,, issued by the Comptroller
General of the United States,
                        States , and OMB Bulletin 07-04.

We found that BBG's financial management system did not comply with OMB Circular
A-123
A-123,, Manag ement Accountability and Control. The circular requires that
        Management
documentation for management controls be clear and readily available for examination.
                                                                         examination.
The absence of fully codified financial management procedures fails to meet this
objective.

The above noncompliance was cited in our audit ofBBG's Balance Sheet as of
September 3030,, 2004, and in subsequent audits.
                                         audits.
 The results of our tests of compliance
with other laws and regulations disclosed no material instances of noncompliance.

                                                                      noncompliance.


                        RESPONSIBILITIES AND METHODOLOGY
                        RESPONSlBILITIES

BBG management is responsible for:
                              for:




                                              4
        •   preparing the annual financial statements, required supplementary
            information, and other accompanying information in conformity with
            accounting principles generally accepted in the United States of America;

        •   establishing and maintaining effective internal control; and

        •   complying with applicable laws and regulations.

Our responsibility is to express an opinion on the annual financial statements based on
our audits. Auditing standards generally accepted in the United States of America require
that we plan and perform the audits to obtain reasonable assurance as to whether the
annual financial statements are free of material misrepresentation and are presented fairly
in accordance with accounting principles generally accepted in the United States of
America
America.. We considered BBG's internal
                                   internal control for the purpose of expressing our
opinion on the annual financial statements and not to provide an opinion on internal
control. We are also responsible for testing compliance with provisions of selected laws
and regulations that may materially affect the annual financial statements.

In order to fulfill these responsibilities, we:

       . •	 examined, on a test basis, evidence supporting the amounts on the annual
       .•
            financial statements and related disclosures;

        •   assessed the accounting principles used and significant estimates made by
            management;

        •   evaluated the overall presentation of the annual financial statements;

        •   obtained an understanding of the internal controls over financial reporting by
            obtaining an understanding of  BBG's internal control, determined whether
                                         ofBBG's
            internal controls had been placed in operation, assessed control risk, and
            performed tests of controls;

        • .· obtained an understanding of the internal controls relevant to performance
             measures included in Management's Discussion and Analysis, including
             obtaining an understanding of the design of internal controls relating to the
             existence and completeness assertions and determining whether they had been
             placed in operation;

        •   tested compliance with provisions of selected laws and regulations that may
            have a direct and material effect on the Annual Financial Statements;

        •   obtained written representations from management; and

        •   performed other procedures as we considered necessary under the
            circumstances.


                                                  5
Our audits were conducted in accordance with auditing standards generally accepted in
the United States of America, the standards applicable to financial audits contained in
Government Auditing Standards,
                      Standards, and OMB Bulletin 07-04. We believe that our audits
provided a reasonable basis for our opinions.

The Management's Discussion and Analysis and Required Supplementary Information
are supplementary information required by OMB Circular A-136, Financial Reporting
Requirements, and the Federal Accounting Standards Advisory Board. We have applied
certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of the supplementary
information. However, we did not audit the information and express no opinion on it.

This report is intended solely for the information and use of BBG's management, the
Inspector General of the U.S
                           U.S.. Department of State and Broadcasting Board of Governors,
OMB, the Department of the Treasury, and Congress and is not intended to be and should
not be used by anyone other than those specified parties. This restriction is not intended
to limit the distribution of this report, which is a matter of public record.

Comments by BBG management on this report are presented as Appendix A. The
written response by BBG management to the significant deficiencies identified in our
audit has not been subjected to the auditing procedures applied in the audit of the
financial statements, and accordingly, we do not express an opinion on these comments.
                                                                                          (..)
                                          \
                                       ~~"Y-~~~
                                                  ~      Of   ~ ~.   .   L c ~\ \.. "'\
                                              Leonard G. Birnbaum and Company;\LLP


Alexandria, Virginia
November 14, 2007




                                              6
                                                                                                                                                                                     £1P PENDIX i\




                  lHW.\DC:1....,f1NG BOARH
                  lHW.\.DC/L"""ffNG    BOA1·m OF GOVElmOHS
                                                    COVlmJ'JOJ{s
                  OI':
                  U Kn"ED     STATE,'" OF A:'.IFlHC
                       n 1;;n STi\TK""    A.\I EWCA..\


:---J ()v t:rn b~' r    !5~    ~007


  I'r,',; !-+ '1)(';<lb\(: fJ,~wmd
  lhc H'.'lW;"<lhit:         IIo wa rd J.   J, Kwng:l:'d
                                                K nmp:1:'d
JInsp              C,c:wr:d
          c cior (;c:)"''I";1I
   n;;pc,;lor
Oft!t:<.!
     ffice ,)fof I nmsp   ec Lor
                      : p<.!C to r (lc
                                   ('\.':lnal
                                        l..:- ral
Department
D<":P:IMTnI.'r\1         ')f St.
                         of  S I:l\;:
                                  t<:
\'\'a~;hjl\gt(l:l D,C'.
\'."a';hinl,itoD  D.C. :::O<;22   ·031 J:-I
                        :.0<;2:'.·O,1fJR




Thj~.
Th     i j in
   i-, i,  in        rl. ~ ~",ptH1 S e [0
                     n:"r"'Hl"C           vour req
                                       to your      uest
                                               rcql.:<;$\                 (f4of'
                                                                            v
                                                                                 CnJlllrJl!m~;
                                                                              H' C                    t he :cport
                                                                                                 on tll'';-
                                                                                  n n 1H1t:"lH S (JI)       re port ,A>1U{>-/,)'{·(./,'j·fr,
                                                                                                                        [ fI ) ..j·] { ··o/'j- rr :, .A       {: ~/ rhi'
                                                                                                                                                        ud it o/rhi'
                                                                                                                                                      ;{mla
l.Jr"'<huka,,·:itJ.~,t
HI     HJdcCH1UJg f    fjr/~
                        lt",rd      { Jl ljtA'cnPI~\'
                             ..rs ! <il  tJ~I..I~<crl1")J : \· 201')    a nd ?iJu6
                                                               }Of) 77' tIlid      lJri'KJp~l!
                                                                              20U6 lJ                         ,t..;'a:(~n : c ; nU
                                                                                                   Fhh Hlciul Srart:JN,
                                                                                     ri 1u-'.I!lO! Financial                    Ii J J;


    hi s i"
'11 illS        th<o' ft ourth
            t:, th.:             y<:,lfr [hI:
                         t'Urih yea      th e BBC)
                                              B BG !l;L'i pre pared fi
                                                     has pn:p;;n:d    financi:J!  sb1l:ll1emS, and
                                                                        na nci al sl;:1cmems.           th e k'urth
                                                                                                   an d the            :n:di : 1h;j
                                                                                                              fo urt h ;:udi:              nn<
                                                                                                                                       the B
                                                                                                                               tll;][l the    B{ i
 h"
 hd:'>.,. l;:l lkrg(lllC Th
          wlderg<ll1C         Th~' o: ifJj~T".:n(!~J;::3
                                      im k'pl:n,!cJ:: audidltt film has issued
                                                               linn has  ixsuc d an un,;I:;I!Jlicu    f~t:k<lli"l
                                                                                      u uqu a li tied ("ch.:rlll''j "pillion          Bf.K;·~:
                                                                                                                    « pinion on BB(i·~.
 pr  m c ip ul fi
 pnncipuJ             nan cia..t l st:etlcme1llS
                    lina1H:i       sttth:nlcnts .

,·\\dll<:\'Ing       ; ~: l lIn<;u::ltificd
    d li<: \' ing ;t:l                              o piu;iml
                            llJ)(;U:'l i i fi ,' d opi          , )11 its financial
                                                          io n Ol!                        s tatements :<;
                                                                            flllur:ciaJ ~l.t\,'mcnls            is iin signilk:ml
                                                                                                                       sigui ficanr achievemen              This '\\~l:;
                                                                                                                                        achicv{':ncl:l.t. 'nli:,   \ \~::;
; l ': ~' o :n p ! i s l h; d under
;l,;;~o:nrlish;.:d            un der        iie h: vc
                                        a [ig.h:      y,'ar-<;ntJ
                                                         ur-c n d l"lt,:lo~.i:'l~ sch ed ul e ..- th
                                                                        o :.i:u.: scheJuh:                    'Ilene . :,:,j"".~,!
                                                                                                   til..:e ;l JgCl\t.;y             il~, FY :co
                                                                                                                         dns.~ , ! ih            cr,' h00l..s
                                                                                                                                              ~OO'!   boo ks ..onn
()\:'t)b'.:f     :r.u
(J..:1ob'.:r 2'>1l \ Vo;         w""d.] ' like
                            \'t; would           I ik~ [0
                                                       to e  xpress omm
                                                           c:-.prc"s        lr ~; l' pn:ci al!o l1 (\0
                                                                                apprt;ciao()11            you r ,,(a
                                                                                                    tr. )'OllT        ~laff
                                                                                                                         fr and
                                                                                                                            :md [n tn lIn:
                                                                                                                                       the au  d it firm,
                                                                                                                                            iludit  finn . l..:tmmd
                                                                                                                                                            Leo nard (,
Bi rnb::um a<t:llJ
B:rnlxmm               :ld C"'l'npuny,
                              C om pany, Lt.P"      LU'. enrto r the profcs~:H)nal
                                                                         pro fcs sion»l and         n)l)p~ra!ivc
                                                                                             <md coop           erative no::mn<:1'
                                                                                                                             : ;m ncr in wh    ic h Il
                                                                                                                                           \\hkh       l': :wdll
                                                                                                                                                     Ih·.; uud it was
                                                                                                                                                                   \\'2:.
ClH utuct
C":lt!  UC{ctL eil .

                            repo rt nnoll':;
             ;nd,<!.: f'CP(,;'t
     r:t: :uh.li
 Jj :;.(;                                                  O ~ ll~ 1'cp,)11abk
                                               () il":::; 0;1<:     re po rt a ble cundiuon               n; g:l:d i~ : t.~ Ill"
                                                                                        candlt10n n:g:,lrdii:,,'                     a}.r':· nc,y·~;
                                                                                                                            tltt: ;j,g<:IlC~,      ';; interna      c.o n tro ls 0\'(;1'
                                                                                                                                                       ill(\:m;lll ,.I,mlml"         ove r it:>ts rh.:
                                                                                                                                                                                                  the
liilul~<.:ial
     n :ll\c ia ! ,atZld           ' '''' ': ll lll 'il i n ~: syste
                             nd aO:':l.1llnlitl~~               :;l"1t~m. m . In adJilion.
                                                                                      addition. lb<:  the al ludil
                                                                                                              ud it WP\l1t
                                                                                                                      w l'0n llU               that. ",hilt-
                                                                                                                                          [C5 thal.
                                                                                                                                     llC,16               \\ hi k [he
                                                                                                                                                                   the iin     ' JlH: :.d ,,>';:':t:m
                                                                                                                                                                          fif1<JlH::.tl    ,;y;;tc m is
1\'"
Ill" fully L'ompjilu'.l c o rupl iu r.t ..Wilh        v i lh th,:,     /jlldge
                                                                [h<:' 1J  li<!g el.. anc     k' IYillllling Pr
                                                                                     ,md! .·Ac,'<iWlIing           occdurcsA
                                                                                                                /'r",nlurc.\              c: ojf !95fJ,
                                                                                                                                       .'lei        J95fJ, OMB          C irtcu1:l r:\
                                                                                                                                                              O MB CixuI:Jr                 · I 27.
                                                                                                                                                                                         >\.!
Flli~"11
F    jn:.:n ..cfo/
                 -f(1l }. : 1. tCl'lt'.~t·ni·eJt!.").
                               tan".i~e tr:C':!l ! - ') J        ti.·n-iS. aDd
                                                               stt:.t't;,L         n
                                                                              nd ();vl
                                                                                    () i\:lB C'i:cuhtr
                                                                                              Clrcula r 1\'   i\ 4i~ 23
                                                                                                                     2J. .~ ..\\fi)nt{f!~nH
                                                                                                                                {~ 'nl1.'(g(~/H<:nt
                                                                                                                                                 .. nf ..1cc(Jul'itahi!i!.~      ({1:U} Con
                                                                                                                                                         l cc tJ unt<::h ili!,t (fIH)           tro], th:.:
                                                                                                                                                                                        ( 'ou//v.'.    ht:
BIHYs fin:m..::i.d
BB(j's              Imauci.rl mlUl;lgem;;nt  Imm~ :g~m~:l~ system                                :;u b ;,kH~ ;al compl
                                                                            :sy~tc!l1 is in ~llb;,klt!,;[1           ':{jmrhali~'<:
                                                                                                                                  iance w ith 1.11-.:   lh..: h:;kr;d
                                                                                                                                                              h:,::;;r;\l FiJ';.:lCliJl
                                                                                                                                                                            Fin; .:ICliJ l
     :: : :t . I.:·.e :~ ll:l:t Imp
;\\, ~;::t.l.:·.J:;\ll:l:t          Lmpw".'cJ:1Cnl.
                                               ro v crncru ''\\(1                     l! /\ ~ ot'
                                                                             ( FF \ l!/\!
                                                                         ,:1 n'!'\            ('1 i 'J'lb,
                                                                                                     'j 'lb .

  !::C'
  f"}':t: rqmn         $t ~H ':5 lhal
             rc pn r: st;W:,                        curren t nn~lncial
                                              h \', ,'UTrent
                                     that lliw.                        n n ~l!lcial syslem              n.~·qul p,:~ u~
                                                                                        systv m n:quiTt:$                     to d
                                                                                                                            s -to   evelop clements
                                                                                                                                   J<.:Ye!op    ck'nKTI1'; I,f         11h: ~ l:n:lJld;>!
                                                                                                                                                                   \)( lhe      ttn :tr'J c1:l!
s~';:l<.
   l;;I<::.. rn.:n'".
              l'.cntx. prim:ip:dly
                         r:rim:ip.d ly p roperty,  roperty. pr l;.nt.            ;In<1 et :qUlpmcm.
                                                                         l;;nt. ,ltd         q uipmen t. ("film              "~)l.lrccS other ihall
                                                                                                                  Ih :ill sources                  thun L:ho         llcn:.:ral (k.:d~
                                                                                                                                                              t:,c !len.:ra]                 d~l'I'  ·r and
                                                                                                                                                                                                         a nd
 dJ(:~·-'
 th  c:·: is a h.:k I:;·.: k of          ly c"djl
                                    l1llly
                               Ill' lill               i.:d finan,::
                                              cnc!ili,·J        fin<Int::.,1       n'.1I1,\!.~l·fJ1Cnl
                                                                               .•l m                                              procedures . \Vc
                                                                                                              "pe1':..Utlg pfO'-"dllr.:s.
                                                                                       .lI1;I:,'.I·rncn t "p.;:ratlt:g                                         H:ldlTSt:JIId :hat
                                                                                                                                                       \V" mldL"r'stalld                 :ha:
 devctupmg clelllcnts
de\"clnpmg              clements of         uf 111<.:   j i ~ l~ ; lC t ~ l st;\:l'm
                                                 lhf.: !in~;lclU~            S h~~l'·t nc'llls
                                                                                            nt s [rom         sut.:. rt': L'~ l.utsidc
                                                                                                    frun t li(lWr.:l'~        «uisidc os't11(;       ! in:,tll~ l ~d sysk'ill
                                                                                                                                          ot' the lill:.111.:i;J!      sy~k' n, in         im:[<:a,~.::;
                                                                                                                                                                                                 Ctf...:[L.:::t::,:;
 lb~' !,ut<:ntiul
 lh<~    l".Jl\.· nti a l fc·r        u isx iou or
                                   nmi,s'ion
                            i' :·f or                      signifi
                                                     o t' sig     nifk...am            m s i!c t i"n s \i,:,:
                                                                                  m'1J)s.aoCtil)DS
                                                                            a m ll::                            V,: ;1    1'10 ,,~c()l,;nj;t.('
                                                                                                                       ,\lso                    th at 1lh<:
                                                                                                                                re c0i::nlz:: 1hnl             bd:
                                                                                                                                                         !1 ,' !:ick or or I"lily
                                                                                                                                                                             rnll : ..<:O.,JiJled
                                                                                                                                                                                               ....,lEJi ::d
 pn;~c,;dur(~s
 p!Yh:t.:duf'      1:S pr("~cnt;;         {,)Pp 0 :-lt: :l i l i e ~".. f{)r
                        p r es ents ()rpn:-ll:.nllie~                   ftl l inl.:(H):   ; 15 t ('I'H~il.:s and
                                                                              ir[l:I,~n:~~$'lCnf';ic':";     and erro  e:rrn~                            nn,anc~ ;l l tr;':jr>:~1l':1inn:~.
                                                                                                                                      p:'.)('c 5si ng nn~lTlCt;lt
                                                                                                                              rs in p:()ccssiag                           t r:-'H :--:
 : ll..: t : o n~L




                                                   J((Jl)\.j :~.II'J




                                                                                                           7
         ~H~ c ontInuing
\.\'t; ;If':
\\'t;          onti nuing. to t::kc     step s to co
                                 tr.kc Sh:ps                   thc~t:
                                                        rrec t the
                                                     correct       se are
                                                                      an:::s.
                                                                           .;s . \Vhik::       flnan;::i aJ s~
                                                                                  \V hih: the fltl:w:::iaJ       stt::n do
                                                                                                             s ystcrn         es Hot
                                                                                                                          J()t.s  not
::,·,~ue
   :~ tJ c interim   l:n~tlJc :~li n'pn('\~.
           interim l~n;:mc:al                  ih c !.IBO
                                   re po rts . 11ll:         h;IS l~st,:blished
                                                     BBG 1t:IS    csld.'li:;he,l a repnning
                                                                                     repo rt ing It}(     tha t ec n;:lhks
                                                                                                      ) ! thm
                                                                                                  to·ol            nables LIS us to
              inte rim financic
p roduce inh:rim
FNU":C                     in:UJci:J1l rcpurt$
                                       rep orts bas
                                                  bascded on
                                                           011 t he gCl1t::FtJl ledger. Since FY
                                                                    gener-w l !edger.              FY 2005,
                                                                                                          2005. u tilizing
                                                                                                                     til iz ing this
reporting tool,
fCj1{)rti:1g    to ol, th(,;
                        he BBG ha    hass su  bmitted timciy
                                          <;\.ihmilttd    ti me ly its qu   a rte rly (inane;a.
                                                                       qU;IJtcrly                   tatemcnt~;
                                                                                      fina n cial s ta te m e nts to the tLr.; Office
                                                                                                                               O ffice of
Management     and Budgc\,
\1an:1gcl::lcnl,mu Budge:t

\ Vce <:mrcntly
W      cu rr en tly cro
                    ern::;:, servii~e
                        ss sen      ce with the Dep           artment of Sute
                                                         Department             SUI\: for fimmei3..l
                                                                                              financial system servicselyicc~;.
                                                                                                                            es. We wi   \villll
h(·
be tr  a ns itionirn; hl
     tr:l1nitioni::g       the D<':l':lr!ln<,'llll)!"
                       In th.:                            lnter iors
                                 D-: l' art; n<" llt ' 11'lnteriOl   's \:-.I{On1Clltllm
                                                                              omentum sy    system
                                                                                               stem hyby mitl-FY
                                                                                                         mi J ·F Y 2008.
                                                                                                                      2008 , We
                                                                                                                              We
al\i k
alit    ip ~,Je that the lIew
     icip:d~                       rinu ncia! system
                            new financial          syste m willw ill a Uo'.v
                                                                        llo w fo fOTr Ill,' inlt:gr;:tion o r'tp
                                                                                      the inft:hrL:tior1         ro pc rty data
                                                                                                               pmrcrt)'           in to th,~
                                                                                                                           da til Into   th .,
g.::-:cr:z[
general lked  'i:Jgcr
                  ger un d lnl(;r:rn
                      ulld               t1nun<:1~-,1 rcpnn
                             int e rim t1n:Hlcial                  tng.
                                                           Cl'lll'ting.

J111 F VY lOlb,  20{):'-, lice
                            t l:e 1l
                                  BB BGG b1::gan      updat ing and r~\,'ritjl1g
                                          ht'gan updating                            :""',H iti ng lh::      k ' \[    ;Hlll;}1 ", )f
                                                                                                                   \[.mu;}1          r Op              l 1\3 ,md
                                                                                                                                             tT;ll icjPHS
                                                                                                                                       OptTill               imel
 ,\dr::
 >\,tJ~~ inistl':uion
              in isuation i.i. \·]0/\.).
                                  \1 0 :\ ), YVc       hav e drnfkd
                                                \\'t: hu\'\:        d ru lkd :l!l   a ll ~t;<::i\l
                                                                                          ~n::'iOn;;      n:;
 1m
                                                                                                                fin (he[he Ufli
                                                                                                                              Ofiice cc [IlJff the
                                                                                                                                               tbe ChIef
                                                                                                                                                      Chl c f Fin:.mClal
                                                                                                                                                                Fin an e iat
n)t'ti·
<  tticer.::.'t."r. i!iJlcJud~I:!!
                        lc]ud i r:g ('odjfy:rg       I h l..~ fin:lll1.:iaJ
                                     c od if)'i rg Ihl;        financial ni~tn:    m:'Jl::~l,;IJj-'::ll\,
                                                                                            ~ ~c.: l n~lH, hLlJ;;.c!.
                                                                                                                  b LJ .j~.I~ t . a nd !}erCnrm",n,'c
                                                                                                                                       ~>et~rnrHl~n\."c mnuagcmeru

                                                                                                                                                               m. nngclH<:nl
(':pcr:;~~ng             proced ures, \'v';;
l.)P;..?L::ing proccdun:s.                  V:; Ih~\C
                                                  ha\t:\.:~olll{..}1~.1r.;~J
                                                                 OJ1 1p-h:h:d nine o                f' the e~c\'en
                                                                                                ( ,)f             leven s~;?.:-c,icns~
                                                                                                                                ec t ions, a,no nd :hcy           pGst.,;.~d
                                                                                                                                                              are p
                                                                                                                                                      .hc y arc     oste d ()n
                                                                                                                                                                             on
11 ~ t: .A
1h:      ~\gency
               :;t." n c y Intranef
                           Intra ne t .w,:b~lll:'.
                                        .vcbsu e . Tt  T!'It:      f'e ! n : l i nil1 ~ [r\'.'o
                                                              u..: rClll;I;!lIl1~                  :--.t: rl i o n~ ;UT
                                                                                          \ '.'0 ;,t'clions            arc heing
                                                                                                                              being finalizcd.
                                                                                                                                       finalize d .

' ; he 1I:Cj)lH1.
',he      n:po rl als
                   also o no!L'~            ft'[)<)n~lbk
                                      !1t,: rc
                           noll'S llun::       pcrta ble "llJiditl0l'! n' ;,;ard in ~ th
                                                          n l!1diliml I't:;arding           ;'\f;.cl1c~/s
                                                                                      thee "'\ ~. ;:I1i::Y · s rc co nc iliario n ('If
                                                                                                               rcconciliu:iClJ1     of
ac co u nts p:J.y~:b[c.
:!'2COWlI.S      paycb lc . \Vc
                              \1,1..: are    w()r[;iil~
                                       Ur\; ·.v orking \\'ltlllhc
                                                        wit h ,h•c Dqi,lrrftlCnt
                                                                     Department OfSt:l1!:
                                                                                      ofSt:llt: to accomplish 1his         thi s .,:11.1
                                                                                                                                 :;:11.1 L~\'C'
                                                                                                                                         have
 lreecentl~
     c e l1li ~ rcc,'i"ca
                n:c;·c ivc d a lik w       uh lh<.:
                                       w:I.1:       ov ers eas aC~~Ollnl:;
                                                the <..Wl:rs":,l$                yirhlc fik,;
                                                                             fl:1:y;!hlc
                                                                  account s p:J           files that I1ccd nee d hlto hbe rccoJ1c::cd.
                                                                                                                           reconciled.

Than k yoouu !{.'r
"hnnk                    !i.H· lria:  npP"fi1i!lily 10
                                 i;l: npportlilliry      com ment (H i tllt:
                                                     HI (;011ll1lUi1ltn      the ::~l d i t l..:pnrt
                                                                                  :"~Idit   rep ort and
                                                                                                     a:ld fl ()I  collaborativr ly w,
                                                                                                             or ('otlal",xatiYl':y            w,'r~.il1g
                                                                                                                                                  'rkillg
wi tl: us on
',vit1;           o n JUtJ Uf FY F Y 2007.
                                       2007 audit. \Ve \V:: b~h:n::
                                                             believe tllnt
                                                                        that the RBG  fE~ G has      u:~:dc
                                                                                                ha s n::       si,-~tli
                                                                                                         :dc ::;i       I~;; anl :;lridcs
                                                                                                                  L:ni t'i:.:anl     str ide s in :heth e
 pa~;l
 P %t ycY';~:lr      i\." wo:
                ur ;I,'i          unJef\~'el)t
                            we unde      rwe nt omur            audit or
                                                       fo urth 3wit
                                                   tr fourth                         princi pal fi
                                                                              ourr prillcipal
                                                                         o f ou                       nancial ::;
                                                                                                    iinanci,ll       1;: le11H:n1:;, ;md
                                                                                                                   st;\lt:lnenl:',        ~ md \\<,<:
                                                                                                                                                  \ (; arc
C{'hYlI'l,iltt::d
com     mit ted 10            c o nt in uall y irnpr(l',.'inl~
                         to (X,nl1:1UaJly      im proving Ihl: th e in ~ ln dL'..eu rcn t or
                                                                    rn;lnd~.''::lll"m                p rn g.fanl S ~:Jlid
                                                                                                ou r programs
                                                                                           o r ,)IJr                   Jl id 1.11(,;
                                                                                                                              the qua qlla~il\'
                                                                                                                                            lit y ,.)(
                                                                                                                                                  .,)( our
 fic ,.u ...~ i ;~ l r cp
 CILUll,:il,,1              o rr in g .
                       t'p(,[ting,



S in c <.:n:l y,




Ja~!t:t
Ja net KF<:'... Slonnt..:s
                St(lr1~: f..:S
Chid' rlll:HKia:
         r1l1:"lCi,1: Or'tiC!:l
                            O rliccl




                                                                                          8
                                                                                          8

